Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   LATIN AMERICAN HEALTH
  INSTITUTE DID NOT ALWAYS
 CLAIM COSTS IN ACCORDANCE
 WITH FEDERAL REQUIREMENTS




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                        April 2013
                                                      A-01-12-01501
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

The Substance Abuse and Mental Health Services Administration (SAMHSA), within the U.S.
Department of Health and Human Services (HHS), is the principal Federal agency charged with
increasing access to substance abuse and mental health services. The Children’s Health Act of
2000, P.L. No. 106-310, created and reauthorized some programs for those services. SAMHSA
has the authority to provide funding for those services to States, political subdivisions of States,
Indian tribes and tribal organizations, and other public or nonprofit private entities.

Federal regulations (45 CFR § 74.21(b)) state that each grantee’s financial management system
must provide (1) accurate, current, and complete disclosure of the financial results of each
program; (2) records that identify adequately the source and application of Federal funds;
(3) effective control over and accountability for all funds, property, and other assets to ensure
they are used solely for authorized purposes; (4) written procedures for determining the
reasonableness, allocability, and allowability of costs; and (5) accounting records that are
supported by source documentation. In addition, nonprofit organizations that receive Federal
funds must comply with the Federal cost principles in 2 CFR part 230, Cost Principles for Non-
Profit Organizations, (Office of Management and Budget Circular A-122), which is incorporated
by reference at 45 CFR § 74.27(a). Costs must be reasonable for the performance of the award
and conform to any limitations in the award (2 CFR § 230, App. § A.2). Costs shared by
multiple programs are allocable to an award in accordance with the relative benefits received
(2 CFR § 230, App. A, 4).

The Latin American Health Institute (LHI) is a nonprofit community-based public health
organization that serves the communities of Boston, Brockton, and Lowell, Massachusetts. LHI
serves more than 20,000 Latin American families and individuals annually by promoting the
health of the community, its institutions, families, and individuals. For the period October 1,
2010, through September 30, 2011, LHI claimed $1,383,930 in SAMHSA funding against three
grant awards.

OBJECTIVE

Our objective was to determine whether costs claimed by LHI were allowable under the terms of
the grants and applicable Federal regulations.

SUMMARY OF FINDING

Of the $1,383,930 in costs that we reviewed, LHI claimed $122,602 in costs that were allowable
under the terms of the grant and applicable Federal requirements. We were unable to determine
whether $1,105,777 in salary and related fringe benefit and overhead costs was allowable
because LHI did not prepare personnel activity reports for employees whose time was charged to
the grant. In addition, we were unable to determine whether $155,551 in facilities charges and
related overhead costs was allowable because LHI allocated costs on the basis of the grant award
budgets rather than on the relative benefit of the grant awards received.

                                                  i
RECOMMENDATIONS

We recommend that SAMHSA:

    •   either require LHI to refund $1,261,328 to the Federal Government or work with LHI to
        determine whether any of the costs that it claimed against the SAMHSA grants were
        allowable and

    •   require LHI to develop (1) written procedures for reporting time-and-effort on the basis
        of actual effort expended on programs and (2) a documented methodology for allocating
        facility costs, on the basis of the relative benefits received, to all of its locations.

LATIN AMERICAN HEALTH INSTITUTE COMMENTS

In written comments on our draft report, LHI stated that it will work with SAMHSA to resolve
the issues related to our findings.

SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION
COMMENTS

In written comments on our draft report, SAMHSA concurred with our findings and
recommendations.




                                               ii
                                                   TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION......................................................................................................................1

      BACKGROUND ..................................................................................................................1
         Substance Abuse and Mental Health Services Administration ...................................1
         Federal Reimbursement Requirements .......................................................................1
         Latin American Health Institute ..................................................................................1

      OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
          Objective .....................................................................................................................2
          Scope ...........................................................................................................................2
          Methodology ...............................................................................................................2

FINDING AND RECOMMENDATIONS ...............................................................................3

      PAYROLL CHARGES NOT SUPPORTED WITH DOCUMENTATION .......................3
         Federal Requirements ..................................................................................................3
         Inadequate Payroll Documentation and Distribution Process .....................................4

      FACILITIES CHARGES NOT SUPPORTED ....................................................................4
          Federal Requirements ..................................................................................................4
          Facilities Charges Improperly Supported and Allocated ............................................5

      RECOMMENDATIONS .....................................................................................................5

      LATIN AMERICAN HEALTH INSTITUTE COMMENTS..............................................5

      SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION
        COMMENTS .................................................................................................................6

APPENDIXES

      A: LATIN AMERICAN HEALTH INSTITUTE COMMENTS

     B: SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION
          COMMENTS




                                                                     iii
                                        INTRODUCTION

BACKGROUND

Substance Abuse and Mental Health Services Administration

The Substance Abuse and Mental Health Services Administration (SAMHSA), within the U.S.
Department of Health and Human Services (HHS), is the principal Federal agency charged with
increasing access to substance abuse and mental health services. The Children’s Health Act of
2000, P.L. No. 106-310, created and reauthorized some programs for those services. SAMHSA
has the authority to provide funding for those services to States, political subdivisions of States,
Indian tribes and tribal organizations, and other public or nonprofit private entities. It does this
through cooperative agreements with those entities and the award of competitive grants known
as “Programs of Regional and National Significance Grants.” (The Secretary of HHS, in
consultation with States and other interested groups, determines “priority mental health needs of
regional and national significance.”)

Within SAMHSA, three Centers—the Center for Substance Abuse Treatment, the Center for
Mental Health Services, and the Center for Substance Abuse Prevention—improve the
availability of effective substance abuse treatment and recovery services. These services
improve the lives of those affected by alcohol and drug addictions; reduce the impact of alcohol
and drug abuse on individuals, families, communities, and societies; address priority mental
health needs of regional and national significance; and assist children in dealing with violence
and traumatic events.

Federal Reimbursement Requirements

Federal regulations (45 CFR § 74.21(b)) state that each grantee’s financial management system
must provide (1) accurate, current, and complete disclosure of the financial results of each
program; (2) records that identify adequately the source and application of Federal funds; (3)
effective control over and accountability for all funds, property, and other assets to ensure they
are used solely for authorized purposes; (4) written procedures for determining the
reasonableness, allocability, and allowability of costs; and (5) accounting records that are
supported by source documentation.

In addition, nonprofit organizations that receive Federal funds must comply with the Federal cost
principles in 2 CFR part 230, Cost Principles for Non-Profit Organizations, (Office of
Management and Budget Circular A-122), which is incorporated by reference at 45 CFR
§ 74.27(a). Costs must be reasonable for the performance of the award and conform to any
limitations in the award (2 CFR § 230, App. § A.2). Costs shared by multiple programs are
allocable to an award in accordance with the relative benefits received (2 CFR § 230, App. A, 4).

Latin American Health Institute

Latin American Health Institute (LHI) is a nonprofit community-based public health
organization that serves the communities of Boston, Brockton, and Lowell, Massachusetts. LHI

                                                 1
serves more than 20,000 Latin American families and individuals annually by promoting the
health of the community, its institutions, families, and individuals. For the period October 1,
2010, through September 30, 2011, LHI claimed $1,383,930 in SAMHSA funding from three
grant awards:

   •    Targeted Capacity Expansion Program for Substance Abuse Treatment and HIV/AIDS
        Services (TCE) grant totaling $533,931. The program serves Latinos in the Boston
        metropolitan area who have the comorbidity of substance abuse and trauma.

   •    Latino Child Trauma Stress Initiative (LCTSI) project grant totaling $399,999. The
        project improves access to and quality of treatment and intervention services for Latino
        children and their families living in the greater Boston area who have been impacted by
        traumatic events.

   •    Targeted Capacity Expansion Program for Substance Abuse Treatment and HIV/AIDS
        Services grant totaling $450,000. The program provides Integrated Dual Disorders
        Treatment (IDDT) to Latinos and Portuguese-speaking minorities in Brockton and
        surrounding areas who have substance abuse issues, serious mental disorders, or are HIV
        positive or at risk for HIV infection.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by LHI were allowable under the terms of
the grants and applicable Federal regulations.

Scope

Our review covered $1,383,930 that LHI claimed against three SAMHSA grant awards for the
period of October 1, 2010, through September 30, 2011. We did not perform an overall
assessment of LHI’s internal control structure. Rather, we reviewed only the internal controls
that pertained directly to our objective.

We performed fieldwork at LHI’s office in Boston, Massachusetts, from July through September
2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws and regulations;

   •    reviewed LHI grant application packages and SAMHSA’s Notice of Grant Awards;



                                                2
   •   reviewed LHI’s OMB Circular A-133 Audited Consolidated Financial Report for fiscal
       years (FY) 2008, 2009, 2010, and 2011;

   •   interviewed LHI management to gain an understanding of its accounting system and
       internal controls;

   •   reviewed LHI’s policies and procedures for financial management;

   •   reconciled LHI’s expense worksheets that included detailed account balances with LHI’s
       monthly SAMHSA drawdowns;

   •   judgmentally selected 77 transactions totaling $367,530 from LHI’s general ledger (e.g.,
       travel, consultants, rent, taxes, phone, electricity, and drinking water) to determine
       whether costs claimed were in accordance with Federal requirements;

   •   reviewed 100 percent of facility charges for the Brockton facility;

   •   traced transactions from LHI’s general ledger to supporting source documentation;

   •   compared LHI’s semimonthly salary transactions and employee time cards to determine
       whether costs claimed were supported by personnel activity reports; and

   •   discussed the results of our audit with LHI officials and regional SAMHSA officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDING AND RECOMMENDATIONS

Of the $1,383,930 in costs that we reviewed, LHI claimed $122,602 in costs that were allowable
under the terms of the grant and applicable Federal requirements. We were unable to determine
whether $1,105,777 in salary and related fringe benefit and overhead costs was allowable
because LHI did not maintain personnel activity reports for employees whose time was charged
to the grant. In addition, we were unable to determine whether $155,551 in facilities charges and
related overhead costs was allowable because LHI allocated costs on the basis of the grant award
budgets rather than on the relative benefit of the grant awards received.

PAYROLL CHARGES NOT SUPPORTED WITH DOCUMENTATION

Federal Requirements

According to 2 CFR part 230, App. A, § A.2.g, costs must be adequately documented to be
allowable under an award.

                                                3
According to 2 CFR part 230, App. B, §§ 8.b. and 8.m., for salaries and wages to be allowable
for Federal reimbursement, grantees must maintain personnel activity reports that reflect the
distribution of activity of each employee whose compensation is charged, in whole or in part,
directly to Federal awards, unless a substitute system is approved in writing by the cognizant
agency. These reports must reflect an after-the-fact determination of the actual activity of each
employee, be signed by the employee or a responsible supervisory official having firsthand
knowledge of the activities performed, be prepared at least monthly, coincide with one or more
pay periods, and account for the total activity of the employee.

In addition, according to 45 CFR § 74.21(b)(6), grantees must have written procedures for
determining the reasonableness, allocability, and allowability of costs in accordance with the
provisions of the applicable Federal cost principles.

Inadequate Payroll Documentation and Distribution Process

We could not determine the allowability of salary and related fringe benefit and overhead costs
that totaled $1,105,777, 1 because LHI did not maintain the required personnel activity reports for
employees who worked on the SAMHSA grants. In addition, LHI did not have written
procedures for determining the allowability of expenditures in accordance with the provisions of
the applicable Federal cost principles. LHI officials stated that they were unaware of the
requirement to maintain personnel activity reports of actual activity for employees who worked
on Federal awards. Instead of charging these multiple SAMHSA awards on the basis of actual
activity of each employee as required by the Federal cost principles, LHI officials stated that the
payroll distribution was primarily based on the grant application budgets. SAMHSA officials
informed us that LHI was not approved to use a substitute system to support salaries and wages.

FACILITIES CHARGES NOT SUPPORTED

Federal Requirements

Federal requirements state that, to be allowable under an award, costs must be (1) adequately
documented, (2) reasonable for the performance of the award, (3) treated consistently, and (4)
determined in accordance with generally accepted accounting principles (2 CFR part 230, App.
A, § A.2.).

Federal requirements also state that a cost must be allocable to a particular grant to be allowable
under an award, in accordance with the relative benefits received (2 CFR part 230, App. A, §
A.4.). A cost is allocable to a Federal award if it is treated consistently with other costs incurred
for the same purpose in like circumstances and if it (1) is incurred specifically for the award; (2)
benefits both the award and other work and can be distributed in reasonable proportion to the
benefits received; or (3) is necessary to the overall operation of the organization, although a
direct relationship to any particular cost objective cannot be shown.



1
 Of the $1,105,777 in salaries that we questioned, LHI attributed $433,030 to the TCE award, $326,940 to the
LCTSI award, and $345,807 to the IDDT award.

                                                        4
Facilities Charges Improperly Supported and Allocated

We could not determine the allowability of program facility costs and related overhead costs that
totaled $155,551, because LHI did not have a reasonable allocation methodology for facilities
charges and could not provide adequate documentation to support the allocation of these costs.
Specifically, our analysis of facility expenses found the following:

      •    LHI allocated $87,299 2 in facility and related overhead expenses to the TCE and LCTSI
           awards, which it operated out of its Boston facility, on the basis of a facility-wide budget
           calculation that it could not adequately support as a reasonable allocation methodology.

      •    LHI directly charged $68,252 in facility and related overhead expenses to the IDDT
           award, which it operated out of its Brockton facility. LHI failed to demonstrate that this
           budgeted amount was a reasonable methodology for allocating expenditures. For
           example (1) $2,126 in natural gas, recycling, and heating oil expenses was allocated 100
           percent to the award, but those expenditures also benefitted other programs; (2) $13,770
           in phone, electric, cable television, and drinking water expenses was allocated 100
           percent to the award, but in the final month of the award LHI transferred costs to other
           programs to avoid exceeding budgeted amounts; and (3) $52,356 in rent, property tax,
           janitorial, phone, alarm service, and trash expenses was allocated on the basis of an
           unsupported methodology.

We could not determine the allowability of the facilities and related overhead costs that totaled
$155,551 because LHI did not have an adequate methodology to ensure that it allocated costs in
accordance with the relative benefits received.

RECOMMENDATIONS

We recommend that SAMHSA:

       •   either require LHI to refund $1,261,328 to the Federal Government or work with LHI to
           determine whether any of the costs that it claimed against the SAMHSA grants were
           allowable and

       •   require LHI to develop (1) written procedures for reporting time-and-effort on the basis
           of actual effort expended on programs and (2) a documented methodology for allocating
           facility costs, on the basis of the relative benefits received, to all of its locations.

LATIN AMERICAN HEALTH INSTITUTE COMMENTS

In written comments on our draft report, LHI stated that it will work with SAMHSA to resolve
the issues related to our findings. LHI’s comments are included in their entirety as Appendix A.




2
    Of the $87,299 in facilities expenses, LHI charged $48,874 to the TCE award and $38,425 to the LCTSI award.

                                                         5
SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION
COMMENTS

In written comments on our draft report, SAMHSA concurred with our findings and
recommendations. SAMHSA’s comments are included in their entirety as Appendix B.




                                           6
APPENDIXES
                         APPENDIX A: LATIN AMERICAN HEALTH INSTITUTE COMMENTS




    Michael J. Armstrong, Regional Inspector General
                            for Audit Services 

    Department of Health and Human Services- OIG 

    Office of Audit Services, Region I - JFK Building 

    15 New Sudbury Street, Room 2425 

    Boston, MA 02203 


    February 19, 2013

    Re: Report Number A-01-12-01501

    Dear Mr. Armstrong:

    The Latino Health Institute, Inc. d/b/a Latin American Health Institute (herein after referred to as "LHI")
    is in receipt of your letter and report, date-stamped February 13, 2013, in reference to SAMHSA grants
    for the period of October 1, 2010 to September 30, 2011.

    This is LHI' s response to the report, as noted above:

    Of the two issues described in the "Summary of Findings", LHI will work with SAMHSA to resolve
    any and all issues related to the stated findings for the period of this report.


    Please direct any questions to me at robert.marquart@LHI.ORG, my desk telephone (617) 778-1106, or to
    my cell phone (617) 785-7147.



    Sincerely,




    Robert A. Marquart, MBA 

    Executive Director of Finance, Administration, & Information Technology 

    Latino Health Institute, Inc. d/b/a Latin American Health Institute 

    95 Berkeley Street, Suite 600                                                                     r

    Boston, MA 02116 





Latin American                  al     ti   te    Boston Lowell B ocl'ton
95 Berkeley St., Boston, MA 02116 Tel: 617.350.6900 Fax: 617.350.6901 TIY: 617.350.6914 www.lhi.org
Latino Health Institute, Inc.
     ~     Substance Abuse and Mental Health Services Administration
                                                                                                 Page 1 of 6


   ~s~~!tSA 

          www.samhsa.gov • 1-877·SAMHSA·7 (1·877·726·4727)




APPENDIX B: SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION COMMENTS
                                                                       March 14, 2013



         Michael J. Armstrong
         Regional Inspector General
         Department of Health and Human Services
         Office of Inspector General
         Washington, D.C. 20201



         Re: 	                 SAMHSA Comments on HHS OIG Draft Report Entitled, "Latin American
                               Health Institute Did Not Always Claim Costs in Accordance With Federal
                               Requirements (A-01-12-01501)"



         Dear Mr. Armstrong :

         The purpose of this letter is to provide the Substance Abuse and Mental Health Services
         Administration's (SAMHSA) comments on the February 25, 2013 Department of Health and
         Human Services (HHS) Office oflnspector General (OIG) draft report entitled, "Latin American
         Health Institute Did Not Always Claim Costs in Accordance with Federal Requirements (A-01­
         12-01501)," which are being submitted on behalfofSAMHSA's Administrator. According to
         the report, the OIG was unable to determine whether the following costs claimed by Latin
         American Health Institute (LHI) against three SAMHSA grant awards during October 1, 2010,
         through September 30, 2011, were allowable. Specifically:

             • 	 $1,105,777 in salaries and related fringe benefit and overhead costs because LHI did not
                 prepare personnel activity reports for employees whose time was charged to the grant;
                 and

             • 	 $155,551 in facilities charges and related overhead costs because LHI allocated costs on
                 the basis of the grant award budgets rather than on the relative benefit of the grant awards
                 received.




   Behavioral Health is Essential To Health • Prevention Works • Treatment is Effective • People Recover
                                                                                             Page 2 of 6


 The OIG's report recommended that SAMHSA:

 • 	 either require LHI to refund $1,261,328 to the Federal Government or work with LHI to
     determine whether any of the costs that it claimed against the SAMHSA grants were
     allowable; and require LHI to develop: (1) written procedures for reporting time-and-effort
     on the basis of actual effort expended on programs; and (2) a documented methodology for
     allocating facility costs, on the basis of the relative benefits received, to all of its locations.

 SAMHSA concurs with the OIG's finding and recommendations. To facilitate follow up and
 potential recovery of costs, SAMHSA requests that a schedule of questioned costs claimed for
 each of the SAMHSA grants be identified in the OIG's final report or be provided separately to
 SAMHSA.

 Status of Action Taken:

SAMHSA classified LHI's Center for Substance Abuse Treatment (CSAT) Targeted Capacity
Expansion HIV/AIDS (TCE-HIV) grant number TI019900 as high risk on February 1, 2013 (see
Attachment). TI019900 is LHI's only active SAMHSA grant. As a precaution, SAMHSA also
restricted the HHS Payment Management System accounts for grant numbers TI018952 and
SM058196, which ended on September 29, 2012. The scope of the OIG's review included all
three grants.

SAMHSA's February 1, 2013 high risk letter also required corrective action by LHI, as
recommended in the OIG draft report. Specifically, LHI must either provide adequate
supporting documentation to SAMHSA of all costs questioned in the OIG's report or reimburse
SMAHSA for the unallowable costs. LHI must also demonstrate that it has developed and
implemented corrective action to ensure its financial management system is capable of
adequately administering Federal awards.

In addition, CSAT conducted a programmatic site visit of the SAMHSA TCE-HIV grant in
February 2013 to determine the integrity ofLHI's Government Performance and Results Act
(GPRA) protocols. The site visit found that pertinent information in client records and GPRA
interviews matched the data submitted into CSAT' s GPRA database, indicating LHI was
implementing the objectives of the grant. However, several weaknesses in programmatic aspects
of the grant related to GPRA were found and require corrective action.

Planned Action:

IfLHI's response to SAMHSA's February 1letter does not provide accounting records and
source documentation that demonstrates the reasonableness, allocability and allowability of costs
claimed under the SAMHSA grants, SAMHSA will issue a final determination on any costs
deemed unallowable. With regard to programmatic weaknesses, CSAT has initiated appropriate
technical assistance to ensure LHI takes the recommended corrective action.
                                                                                  Page 3 of 6


If you have any questions or concerns you may contact me by phone at 240-276-1401 or email at
Christine.chen@samhsa.hhs. gov, or you may contact Rocco LaMonaca, Financial Advisory
Services Officer, at 240-276-1416 or email at rocco.lamonaca@samhsa.hhs. gov. Thank you for
the opportunity to comment on the OIG's draft report.



                                           Sincerely,




                                          Christine Chen, Director
                                          Division of Grants Management
                                          Offiae of Financial Resources



Attachment
                                                                                                                                                                                                                                                                                           Page 4 of 6
                  ~         A Life in the Community for Everyone



              ~ SAMHSA 

              Substance Abuse and Mental Health Services Administration
                                   1 Choke Cherry Road • Rockville, MD 20857
                           www.samhsa.gov • 1·877-SAMHSA-7 (1·877-726-4727)




                       February 1, 2013

                       Robert Marquart
                       Executive Director of Finance
                       Latino Health Institute, Inc.
                       95 Berkeley Street, Suite 600
                       Boston, MA 02116-6264

                       Re: 	       High-Risk Recommendation
                                   SAMHSA Grant Numbers TI019900; SM058196; and TI018952

                       Dear Mr. Marquart,

                       This letter is to inform you of our recommendation that a high risk restriction be placed on
                       Latino Health Institute, Inc.'s (LHI) cunent Substance Abuse and Mental Health Services
                       Administration (SAMHSA) Center for Substance Abuse Treatment (CSAT) Targeted Capacity­
                       HIV/AIDS grant number TI019900, as well as SAMHSA grant numbers TI018952 and
                       SM058196, which ended on September 29, 2012. SAMHSA's financial advisory services
                       officers (FASO) are responsible for notifying organizations whose grants are recommended for
                       high-risk classification.

                       The recommendation was based on fmdings in a recent review of LHI's SAMHSA grants by the
                       U.S. Department of Health and Human Services (DHHS) Office oflnspector General (OIG),
                       which indicates significant questioned costs as well as deficiencies in LHI's financial
                       management system, as described in item 2 of this letter. The OIG initiated its review in response
                       to allegations it received that UTI may have misused Federal funds.

                       According to 2 Code of Federal Regulations (CFR) Part 215.14, Un~form Administrative
                       Requirements for Grants and Agreements With Institutions ofHigher Education, Hospitals, and
                       Other Nonprofit Organizations, DHHS awarding agencies are permitted to impose additional
                       requirements on recipients who have a financial management system that does not meet the
                       standards prescribed in 2 CFR 215.

                       2 CFR 215.14 also requires DI-U-IS awarding agencies to notify recipients on which additional
                       requirements are imposed in writing as to the following:

                       1. 	 Nature of additional requirements- The DHHS Payment Management System (PMS)
                            accounts of LHI' s SAMHSA grants will be restricted. 1 Organizations with restricted PMS
                            accounts must submit: (1) written reimbursement requests using Standard Form (SF) 270

                       1
                        In add ition to TI0\9900, PMS accounts for TIO 18952 (TC-HIV) Md SM058196 (National Child Trauma) will be restricted.
                       Both grants ended on September 29, 2012.


         ,	                         ,i$:...,.,.~4-"·%-)C.:::.~~.:_;-:;.r.• ~......:\~                   v J-::::., .....,::--_ ~-:. -~ ~'-~ ......... ·~-- "';.."~b-•''(-"..-~:~~;d,.~~;:... '~*:~       ·..;::?:d..:-::;.. . . .!._'.;;...~·   ~""--   ,._;   ~,-   ;-'"....!--.~k·-                  ·     •   ~z.   . . .: -.. :~'--.:-:::.~,.,. t....:o:.f.~.=-:::.   ::..., 




'
    ,   · . 	 Behavioral Health is Essential To Health • 'Preve~tlon Works , • Treatment is Effective • Peop,le Recover
              c   "'                                                                               ~                   ,                                                     '	                                                                                                                                                               •

~~-:)·~~~~~-*~~~<.(~~          ,      .!~~-.:=··::.~_if..·# i·~Y""t"-1i'.v.'o;:...,.'!8Z..:·.t-'·fi$:?,1;..,..~.:<·.:?;:~j:_--.,~,.;;.~,-pg~~:;~,~r.,••..-~;-~ '1:.,<._;.·· ~~.;:."-':. '''.:/~.~... ;:;: '"'4'                                 ~ .,;:-·.-; ~-;~_.. ::".c.'"'~~'""'.J.'·:;:;;.'~ 7 ~       ~~~
                                                                                             Page 5 of 6
                                                                                             ATTACHMENT
                                                                                                    Page 2 of3

Page 2 of 3- Robert Marquart, Executive Director of Finance


    Requestfor A dvance or Reimbursement; (2) summary schedules of costs claimed that 

    includes totaJs by each grant budget category; (3) accounting system reports that list the 

    individual cost items included in each grant budget category total; and (4) source 

    documentation (e.g.- cancelled checks, paid bills, payrolls, time and attendance records, 

    contract and subgrant award documents, etc.) for each individual cost item greater than $500. 

    Further, expenditures claimed that are not included in the most recently approved grant 

    budget must be accompanied by detailed justifications/explanations or the related costs will 

    not be accepted as allowable costs. If you have questions regarding the preparation and/or 

    submission of SF270s, please contact the grants management specialist assigned to the grant. 

    The SF270 is available in pdf format at 

    ht1~/www. whitehouse .gov/;?ites/default/files/omb/assets/omb/grants/sf2 7_0_. )2.df.


2. 	 Why additional requirements are being imposed- The OIG's review of SAMHSA's
     grants (TI019900; TI018952; and SM058196) found approximately $1.2 million in
     questioned costs during the period October 2010 through September 2011 as well as
     deficiencies in LHI's financial management system, as described below. Specifically, the
     review questioned:

    ../ 	 Approximately $1.1 million due to lack of required personnel activity reports that support 

          the distribution of salaries and wages charged to Federal awards; and 


    ../ 	 Approximately $155,000 facilities and retated overhead costs that were either 

          unsuppmted or based on budgets, along with no allocation methodology. 


    The OIG briefed SAMHSA on the above findings following the OIG's exit conference with 

    LHl in January 20 13. 


3. 	 Nature of corrective actions needed- LHI must either provide adequate supporting
    documentation to SAMHSA of all costs questioned in the OIG's report or reimburse
    SAMHSA for the unallowable costs. LHI must also demonstrate that it has developed and
    implemented corrective action to ensure its tinancial management system is capable of
    adequately administedng Federal awards.

4. 	 Time a11owed for completing corrective actions- LHI's SAMHSA grants will be
    classified as high risk until the corrective actions, described in Item 3 above, are satisfactorily
    completed.

5. 	 Method for requesting reconsideration of additional requirements imposed - LHI may
   request that we reconsider our decision to classify its SAMHSA grants as high risk. The
   request should be made by letter and include a detailed explanation, along with any necessary
   supporting documentation, as to why you believe LHI' s grants should not be classified as
   high risk.

Please submit all responses to this letter to the following address:
                                                                                      Page 6 of 6
                                                                                       ATTACHMENT
                                                                                             Page 3 of3

Page 3 of 3- Ro bert Marquart, Executive Director of Finance



              Rocco LaM.onaca, Financial Advisory Services Officer 

              SAMHSA, Division of Grants Management 

              1 Choke Cherry Road, Suite 7-1 091 

              Rockville, MD 20857 (overnight use 20850) 


Once the conective actions in Item 3 are completed, SAMHSA will promptly recommend that
your Organization's SAMHSA grant(s) be removed from high-risk.

Ple ase contact me with questions or concems by telephone at (240) 276-1416 or email at
rocco.lamonaca@samhsa.hhs.gov. Thank you for your cooperation.

                                            Sincerely,




                                            Rocco LaMonaca, CPA
                                            Financial Advisory Services Officer
                                            SAMHSA, Division of Grants Management

cc:
Kathleen Sample, SAMHSA!DGM
E ileen Bermudez, SAMHSA/DGM
Odessa Crocker, SAMHSA!DGM
Edwin Craft, SAMHSA/CSAT
David Thompson, SAMHSA/CSAT
Kenneth Curl, CMHS
